UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




                     Purchase Cards


                 Report No. OIG-AMR-65-11-03




                                               September 30, 2011
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND ......................................................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY .............................................. 2

FINDINGS ................................................................................................ 3

DOCUMENTATION OF PROCEDURES........................................................ 3

Recommendations........................................................................................... 4

MONITORING ........................................................................................... 4

Recommendation ............................................................................................ 7

SEPARATED EMPLOYEES ........................................................................ 7

TRAINING ................................................................................................ 8

Management Comment ................................................................................... 8
OIG Response ................................................................................................. 9
Recommendation ............................................................................................ 9

TESTING OF TRANSACTIONS ................................................................... 9

Management Comment ................................................................................. 11
OIG Response ............................................................................................... 11
Recommendations......................................................................................... 14

FULL UTILIZATION ................................................................................ 14

REBATES ............................................................................................... 15

CONTROL OVER ITEMS PURCHASED ..................................................... 15

Recommendation .......................................................................................... 16

APPENDIX

Memorandum from the Chief, Acquisitions Management Branch, response to
Draft Audit Report – Purchase Card (OIG-AMR-654), dated September 12, 2011.
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

During Fiscal Year 2010, 86 employees of the National Labor Relations Board
used purchase cards to complete 13,896 transactions for approximately $2.75
million.

The objective of this audit was to determine whether the National Labor
Relations Board’s purchase card program was operated in accordance with
applicable laws, regulations, and Agency policies; and whether controls were
sufficient to prevent or detect waste, fraud, and abuse. Our scope was
purchase card activity during Fiscal Year 2010.

Overall, the National Labor Relations Board’s purchase card program
streamlines the acquisition process for goods and services while providing
controls that are sufficient to prevent fraud and abuse. We did, however, find
areas of administrative controls that could be improved upon. These areas
primarily relate to documenting procedures, monitoring transactions, and the
use of priority vendors.

We are making five recommendations that we believe will assist in managing
the purchase card program and strengthen its internal controls.

Management provided comments to the draft report that generally
acknowledged the findings and recommendations. The comments also state
various steps that will address implementation of the recommendations.
Management, however, disagreed with our finding regarding training of card
holders and approving officials. Management also disagreed with our
recommendation that the Acquisitions Management Branch coordinate with
the Facilities and Property Branch to provide guidance to purchase card
holders related to maintaining records for and disposition of non-consumable
property purchases. A copy of management’s comments is included as an
appendix to the report.
BACKGROUND

             The General Services Administration (GSA) administers the
             Federal government’s credit card program. GSA contracts
             with commercial banks to issue credit cards to Federal
             employees to make official purchases. The credit cards are
             generally referred to as “purchase cards.” Use of the
             purchase card is intended to streamline procurement and
             payment procedures and reduce administrative burden by
             reducing the number of procurement requests, purchase
             orders, and vendor payments issued.

             The National Labor Relations Board’s (NLRB or Agency)
             purchase cards are issued by Citibank and the program is
             administered by the Acquisitions Management Branch.

             During Fiscal Year (FY) 2010, the NLRB had 98 purchase
             card holders. Of those cardholders, 86 had activity in
             FY 2010 involving 13,896 transactions for approximately
             $2.75 million.


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to determine whether the
             NLRB's purchase card program was operated in accordance
             with applicable laws, regulations, and Agency policies and
             whether controls were sufficient to prevent or detect waste,
             fraud, and abuse. Our scope was purchase card activity
             during FY 2010.

             We reviewed Government-wide laws, regulations, and policy
             documents related to the use of purchase cards. We also
             reviewed Agency policies and procedures and interviewed
             Agency personnel to identify operating procedures.

             We tested activity related to monitoring purchase card
             transactions; providing training for cardholders and
             Approving Officials; and canceling purchase card accounts of
             separated cardholders. We also tested to determine whether
             Approving Officials were signing cardholders’ monthly
             statements and whether the statements were supported by
             proper documentation.

                                2
            We evaluated purchase card activity to determine whether
            cardholders were using the purchase cards for official
            Government expenses in accordance with laws, regulations,
            and Agency policies.

            We excluded from our testing any purchase card
            transactions by the Office of Inspector General purchase
            card holder.

            We conducted this performance audit in accordance with
            generally accepted government auditing standards during
            the period June 2010 through September 2011. Those
            standards require that we plan and perform the audit to
            obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on
            our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions
            based on our audit objectives. We conducted this audit at
            NLRB Headquarters in Washington, DC.


FINDINGS
            In general, we found that controls were sufficient to prevent
            fraud and abuse. We did, however, find areas where the
            administrative controls could be improved upon. These
            areas relate to documentation, monitoring, and the use of
            priority supply sources.


DOCUMENTATION OF PROCEDURES

            Office of Management and Budget (OMB) Circular A-123,
            Appendix B (Appendix B), requires each agency to develop
            and maintain a Purchase Card Management Plan, update
            the plan at least annually, and submit a copy of their plan to
            OMB on an annual basis, not later than January 31 of each
            calendar year.

            During FY 2010, the Agency did not have a Purchase Card
            Management Plan. In February 2011, the Acquisitions
            Management Branch prepared and submitted a Management
            Plan to OMB.


                               3
               We evaluated the Management Plan provided to OMB to
               determine whether it addressed all of the elements required
               by Appendix B.

               We found that the Management Plan addressed all but two of
               the required elements. One element missing was an
               explanation of how available reports and data would be used
               to monitor delinquency, misuse, performance metrics, spend
               analysis, and other relevant transactions and program
               management issues. The Management Plan also did not
               include a description of how the Agency will ensure the
               ongoing effectiveness of the actions related to evaluating the
               effectiveness of training, refund management controls, and
               tax recovery efforts.

Recommendations

               We recommend that the Acquisitions Management Branch
               Chief:

               1. Amend the Management Plan to include all items required
                  by Appendix B.

               2. Implement the policies and procedures outlined in an
                  amended Management Plan.


MONITORING

               Appendix B requires agency managers to review available
               data to detect instances of delinquency, fraud, and misuse
               and identify trends and outliers in relevant indicators of
               charge card program performance. At the NLRB, these
               managers include the Acquisitions Management Branch
               Chief, who is the “Agency Program Coordinator,” and the
               cardholders’ supervisors, who are the “Approving Officials.”

Agency Program Coordinator

               As noted above, the Agency did not have a Management Plan
               for FY 2010 and did not have documented procedures for
               reviewing purchase card activity. Since the procedures were
               not documented, we asked Acquisitions Management Branch
               officials to describe their monitoring process. The process
                                  4
                that they described included monitoring purchase card
                activities by using reports available from Citibank and
                sending an e-mail message to a cardholder requesting
                additional information when a questionable transaction was
                spotted.

                When we reviewed the documentation related to these
                activities, we found that the Acquisitions Management
                Branch maintained the Citibank reports for October 2009
                and June through September 2010 with handwritten
                notations, but that e-mail messages were not maintained.
                The Agency’s records retention schedule requires these types
                of records to be maintained for 2 years after the end of the
                fiscal year.

                Below is a table that shows the results of the Acquisitions
                Management Branch’s monitoring efforts as documented by
                the reports:

                                   Questioned         Split    Sales
                     Month        Transactions    Transactions Taxes Total
                 October 2009          0               0         0     0
                 June 2010             1               0         3     4
                 July 2010             1               0         0     1
                 August 2010           2               0         3     5
                 September
                                        1               0           4          5
                 2010
                 October 2010           1               1           1      3
                 Total                  6               1          11     18


Approving Official’s Signature and Transaction Documentation

                Approving Officials are responsible for ensuring that all
                purchases made by the cardholder were appropriate and
                that charges are accurate. After reviewing the charges, the
                Approving Official is required to sign the account statement
                and maintain documentation in accordance with Agency
                procedures. Before February 19, 2010, the Agency’s practice
                was to have cardholders submit statements and invoices to
                the Finance Branch. This practice, however, was not
                documented in written policies or procedures. On

                                   5
February 19, 2010, NLRB cardholders were notified by the
Finance Branch that they were required to sign and date
purchase card statements, have their supervisor sign and
date the statements, attach a copy of all invoices, and send
the signed statements and copies of all invoices to the
Finance Branch.

We tested all purchase card statements with activity during
FY 2010 to determine whether they were signed and dated
by the cardholder and Approving Official. We also tested all
purchase cards with activity in April, June, and September
2010 to determine whether the statements were sent to the
Finance Branch with all invoices or another valid form of
documentation.

Approving Officials Review and Documentation

Based on a review of Citibank data, we identified a universe
of 851 purchase card statements to test between October 15,
2009 and October 15, 2010. From this testing, we excluded
six statements – one from a cardholder who is involved in an
Office of Inspector General investigation, two from a
cardholder in the Office of Inspector General, and three from
an office that is detailed an Office of Inspector General
employee. Of the remaining 845 statements, 118 were not
available in the Finance Branch, but we were able to obtain
106 of those directly from the cardholders.

For the 833 purchase card statements available for review,
we found that 105 of them (13 percent) were not signed by
the Approving Official. Eighty-nine of these statements did
not have any signature and 16 were signed by someone other
than the Approving Official identified by the Acquisitions
Management Branch.

Transaction Documentation

In order to show trends in cardholders adhering to the
February 19, 2010 requirement, we reviewed statements
from April, June, and September 2010 to determine whether
the statements were submitted to the Finance Branch with
the proper documentation.


                   6
             There were 202 statements for cardholders with purchase
             activity in April, June, and September 2010. As shown in
             the table below, 51 percent of the statements were supported
             by adequate documentation and 13 percent had no
             documentation submitted to the Finance Branch.

                                                                No
                             Complete     Partial     No    Statement
                   MONTH      Support    Support    Support in Finance
                 April             39          16         2          8
                  Percent         60%        25%         3%        12%

                 June               27        25          4            8
                  Percent          42%       39%         6%          13%

                 September          36        32          3              2
                  Percent          49%       44%         4%             3%

                 Total             102        73          9             18
                  Percent          51%       36%         4%             9%

Recommendation

             Note: Recommendations 1 and 2 address the development
             and implementation of procedures to address the findings
             noted above.


SEPARATED EMPLOYEES

             OMB’s best practices include establishing controls to ensure
             that purchase card accounts are canceled when an employee
             retires or leaves the Agency.

             For FY 2010, the Agency did not have written procedures
             regarding separated employees.

             Seven cardholders separated from the Agency during FY
             2010. One of these accounts remained open for more than a
             year after the employee separated from the Agency and
             another account was still open as of May 13, 2011. One
             office continued to use the separated employee’s card. There


                               7
             was no activity on the other card after the employee
             separated.

             The Purchase Card Management Plan submitted to OMB on
             February 7, 2011, contained procedures for canceling
             accounts when cardholders transfer between NLRB operating
             units or leave the Agency.


TRAINING

             Appendix B, states that all purchase card holders and
             Approving Officials must receive training prior to
             appointment; receive refresher training at least every 3
             years; and certify that they have received the training,
             understand the regulations and procedures, and know the
             consequences of inappropriate actions.

             In FY 2010, the Agency’s training program consisted of
             providing in-house training to cardholders and Approving
             Officials. Employees who became cardholders or Approving
             Officials after this training was provided were required to
             take on-line training provided by GSA. Training records and
             certificates were maintained by the Acquisitions
             Management Branch.

             We reviewed the in-house training provided to cardholders
             and found that it met OMB requirements. We also tested to
             determine whether cardholders and Approving Officials,
             other than those in the Office of Inspector General, met the
             training requirement. For 7 of the 52 Approving Officials (13
             percent), we found either no record of initial training or that
             refresher training was not completed within the 3-year
             period. We also could not find a record of training for 1 of
             the 97 cardholders. This cardholder was also one of the
             seven Approving Officials.

Management Comment

             Management commented that they had no record of any
             cardholder or approving officials who have not been properly
             trained. They noted that their procedures require that all
             cardholders and approving officials provide a copy of a
             certificate of training before any purchase card applications
                                8
               are processed or before any approving officials are added to
               their roster.
OIG Response

               After receiving the comments to the draft audit report, we
               met with the Acquisitions Management Branch Chief and
               reviewed the records that he provided. This work confirmed
               the finding that there was no record of training for seven
               approving officials and one cardholder within the 3 year
               period of the scope of this audit.

Recommendation

               Note: Recommendations 1 and 2 address the development
               and implementation of procedures to address the findings
               noted above.


TESTING OF TRANSACTIONS

Improper Purchases

               The Federal Acquisition Regulation states that authorized
               cardholders are required to use the purchase card for
               purchases/expenses related to official expenses, but not for
               personal reasons. Also, purchase cards cannot be used for
               travel related transactions.

               Merchant category codes (merchant codes) are established
               by the banks to identify different types of businesses. To
               identify potentially improper purchase card use during FY
               2010, we queried Citibank’s database for transactions
               charged to merchant codes that are inconsistent with official
               business. These merchant codes included department
               stores, florists, health and beauty spas, electronic stores,
               grocery stores, supermarkets, and various types of eating
               establishments. We also queried Citibank’s database for
               transactions that appeared to be travel-related or that
               occurred on weekends. We reviewed the identified
               transactions to determine whether they were improper.

               We did not find any improper transactions that had not been
               previously identified by prior Office of Inspector General or
               Acquisitions Management Branch activity.
                                  9
Exceeding the Micro-Purchase Level

                  Unless a purchase card holder has additional procurement
                  authority, he or she may only make purchases up to the
                  micro-purchase limit of $3,000. Our testing found 16
                  transactions that were made by two purchase card holders
                  without additional procurement authority that exceeded the
                  micro-purchase level in amounts ranging from $3,242 to
                  $12,540.

                  A contributing factor to exceeding the micro-purchase limit
                  was that purchase card holder’s single transaction limit was
                  set at an amount above the micro-purchase limit. In all, we
                  found 12 purchase card holders that, at some point during
                  FY 2010, had a single transaction limit greater than the
                  micro-purchase limit. The Acquisitions Management Branch
                  took corrective action both before and during the audit.

Split Purchases

                  Purchases made to the same vendor on the same day in
                  order to circumvent the micro-purchase limit are improper.
                  We refer to such activity as “split purchases.” Both
                  Government–wide and Agency policies prohibit these types of
                  transactions.

                  We reviewed the database of purchase card activity for FY
                  2010 in order to identify potential split purchases. We then
                  reviewed supporting documentation to determine whether
                  the identified transactions were in fact split purchases.

                  We identified seven instances in which cardholders made
                  more than one charge to the same vendor on the same day.
                  The charges totaled $28,841. In two instances, the invoice
                  exceeded the micro-purchase limit, but the payment was
                  split into more than one charge. For the other five instances,
                  we found the cardholder made two or more separate
                  purchases to the same vendor on the same day.

                  The Agency’s Purchase Card Management Plan that was
                  submitted to OMB in February 2011 identifies procedures to
                  review activity for questionable transactions and split
                  purchases along with the consequences for purchase card
                  misuse.
                                    10
Management Comment

                In the draft report, we stated that our observation is that
                these procedures have not been fully implemented.
                Management disagreed with our observation.

OIG Response

                We based our observation on the comments made by
                Acquisitions Management Branch personnel during audit
                interviews that occurred in February 2011 after the Agency’s
                Purchase Card Management Plan was submitted to OMB.
                While we wanted to note that the Branch had taken some
                corrective action, we also wanted to ensure that our report
                did not imply that corrective action was fully implemented.
                Our finding that identified seven transactions is based on
                purchase card activity that occurred during FY 2010. We
                did not conduct any testing of purchase card activity that
                occurred during or after February 2011. As part of our audit
                follow-up work, we will determine if the procedures have
                been fully implemented.

Purchases Outside Authorized Purchase Category

                The Federal Acquisition Regulation states that agencies
                using the purchase card should establish procedures for use
                and control of the card. A document titled “Welcome to the
                NLRB Citibank Purchase Card Program” (NLRB Guide),
                dated June 29, 2009, contain the operational instructions
                that provide guidance to NLRB cardholders. The NLRB
                Guide identifies what purchases cardholders are authorized
                to make. The NLRB Guide also states that the respective
                department should be contacted to obtain the items they are
                not authorized to purchase.

                We reviewed all purchase card transactions to determine
                whether cardholders purchased items that were not
                authorized by the NLRB Guide. We identified 59
                transactions, totaling $77,420, that were outside the
                cardholders’ purchase card authority.

                The unauthorized transactions include 39 transactions for
                training expenses that totaled $75,399 that were completed
                by purchase card holders who were not employees of the
                                   11
                   Office of Employee Development. The NLRB Guide states
                   that only the Office of Employee Development cardholders
                   are authorized to purchase training. Three purchase card
                   holders from one office made 35 of the transactions, totaling
                   $72,952.

                   Other than the training charges, cardholders completed 20
                   transactions totaling $2,021 that, according to the NLRB
                   Guide, were not authorized. The transactions included the
                   purchases of books and subscriptions, furniture, repair
                   services, and transportation costs.

Priority Sources

                   The Federal Acquisition Regulation identifies the priorities
                   for use of Government supply sources. These include, in
                   order, agency inventories, excess from other agencies,
                   Federal Prison Industries, Inc., products available from the
                   Committee for Purchase from People Who are Blind or
                   Severely Disabled, central supply sources such as stock
                   programs at the GSA, mandatory Federal Supply Schedules,
                   optional use Federal Supply Schedules, and commercial
                   sources. Preferred sources do not have to be used for items
                   less than $100, or for items between $100 and $5,000 with a
                   written justification.

                   We reviewed purchase card statements and related invoices
                   to identify purchases exceeding $100. We then determined
                   whether the item purchased was available in the GSA
                   catalog. We also determined whether the files contained a
                   written justification for not using a priority source.

                   Cardholders made 239 purchases, totaling $128,222
                   (approximately 5 percent of the total purchase card
                   transactions) from commercial vendors that should have
                   been purchased through Government supply sources. These
                   purchases consisted mostly of copier paper and printer
                   cartridges, but also included other office supplies such as
                   file folders, pens and markers, envelopes, and address
                   labels.

                   When we reviewed the files available in the Acquisitions
                   Management and Finance Branches we found that they did
                   not contain written justifications for the purchases. We then
                                     12
requested documentation from the 49 purchase card holders
who completed the transactions. We received responses
from 46 purchase card holders, and all but one responded
that they could not provide the requested documentation.

Because of the lack of a written justification, we cannot
determine if it was appropriate for the cardholder to use a
non-priority source. We can, however, compare the cost of
the items purchased to the cost of the items that was listed
in the GSA catalog. As indicted in the below table, overall
there would have been a cost savings by using the priority
source identified in the GSA catalog:

                   Purchased
  Item Category     Amount     GSA total   Difference
Printer Cartridge   $38,830.38  $38,507.88    $322.50
Paper               $63,688.23  $62,830.48    $857.75
Envelopes            $2,072.32     $855.37 $1,216.95
Folders             $11,647.48   $9,544.03 $2,103.46
Staplers/Punchers      $919.80     $641.43    $278.37
Rolling Bags         $2,817.31   $2,937.04  ($119.73)
Tape                   $694.54     $394.56    $299.98
Markers/Pens         $1,931.07   $1,448.64    $482.43
Address Labels       $1,717.64   $1,338.70    $378.94
Other                $3,903.41   $3,963.44    $(60.00)
Total             $128,222.19 $122,461.57 $5,760.62

On April 15, 2011, the Agency issued Administrative Bulletin
AB 11-08, Mandatory Sources for Office Supplies, which
states that GSA issued blanket purchase agreements for
office supplies under the Federal Strategic Sourcing
Initiative. This bulletin notes that in addition to getting
discount prices, use of blanket purchase agreements
qualifies as purchasing from mandatory sources. On
July 21, 2011, the Acquisitions Management Branch sent an
e-mail message to cardholders and Approving Officials
informing them that if a cardholder chooses not to use this
initiative, the specific reasons must be documented in
writing and approved by the Approving Official.




                  13
Sales Tax

              Appendix B states that the Federal Government is not liable
              to pay taxes to state and local governments, and any such
              taxes paid must be recovered by the Agency. Also, NLRB
              policy states that the cardholder is responsible to inform
              merchants of the NLRB’s exemption status on any purchases
              made by a Citibank purchase card.

              In FY 2010, the NLRB had 115 sales tax transactions
              totaling $1,796.07. The Agency recovered the sales tax for
              five of these transactions, totaling $78.

Recommendations

            We recommend that the Acquisitions Management Branch
            Chief:

            3. Review the NLRB Guide to determine whether placing limits
               on items that cardholders are authorized to purchase meets
               the Agency’s operating needs.

            4. Request that the purchase card holders attempt to obtain
               refunds of sales taxes paid.

              Note: Recommendations 1 and 2 address the development
              and implementation of written procedures to review
              purchase card use for improper transactions.


FULL UTILIZATION

              Federal Acquisition Regulation states that Government-wide
              commercial purchase cards shall be the preferred method to
              purchase and pay for micro-purchases. To determine
              whether there were opportunities for purchase card use that
              were not being utilized, we reviewed purchase activity under
              the micro-purchase threshold related to offices other than
              the Acquisitions Management Branch that were paid through
              the payment voucher process, as opposed to using the
              purchase card.

              We found that, generally, cardholders made full use of
              purchase cards. We did find, however, that the purchase
                                 14
             card could be more fully utilized for purchases of translation
             services. We identified 258 transactions for those services,
             totaling $110,051, that were paid through the payment
             voucher process to vendors that accepted purchase cards.

             An important benefit of the purchase card program is that it
             lowers the administrative burden to process transactions.
             By more fully utilizing the card, the Agency could increase
             its operating efficiency.


REBATES

             The NLRB receives a quarterly rebate from Citibank that is
             based on the net Agency’s charge volume. We reviewed these
             rebates to determine whether the rebates were recorded
             accurately and timely in the Agency’s financial management
             system and supported by documentary evidence.

             The Agency received quarterly payments totaling $27,808 in
             FY 2010. These amounts were recorded accurately in a
             timely manner.


CONTROL OVER ITEMS PURCHASED

             Appendix B states that for property acquired with a
             purchase card, Agencies must have reasonable, effective
             internal controls so that use of the property is limited to
             official purposes.

             We identified one cardholder who used the purchase card to
             buy equipment that cost $19,316. The equipment was
             related to the cardholder’s official duties and generally
             consisted of cameras and other electronics items. We believe
             that this type of equipment has a high inherent risk for loss
             because it can be easily converted for personal use or stolen.

             Because the cardholder did not maintain inventory control
             records for the items, we selected a sample and performed
             physical inventory. On the day of inventory, we could not
             account for 9 of the 62 items in our sample. When
             questioned about the missing equipment, the cardholder
             stated that three of the items were at home and that two of
                                15
             the items were taken home for personal use. For the other
             six items, the cardholder could not provide information
             regarding the equipments’ location. At a later date, the
             cardholder was able to account for the missing equipment.
             We verified that the missing items had been found and the
             items that had been taken home by the purchase card holder
             had in fact been returned.

             We also observed that some of the equipment was purchased
             for a one-time use and then stored. Storing equipment that
             could be used by other parts of the Agency is not the best
             use of resources and could be considered wasteful.

             We were unable to find Agency guidance for purchase card
             holders addressing the inventory or other controls of non-
             consumable property. While we expect all Agency employees
             to know that it is improper to take Agency property home for
             personal use, the lack of guidance on inventory control and
             disposition of items purchased with the purchase card may
             have contributed to this situation.

Recommendation

             We recommend that the Acquisitions Management Branch
             Chief:

             5. Coordinate with the Facilities and Property Branch to
                provide guidance to purchase card holders related to
                maintaining records for and disposition of non-
                consumable property purchases.




                               16
APPENDIX
Our comments with respect to the findings of the report are as follows:

Page 7 of the report illustrates the number of cardholders and approving officials who did
not properly submit their purchase card statements, which were either unsigned or signed
by other than the designated approving official. We acknowledge the finding. These
statistics represent a review of over 845 statements. Unfortunately, AMB has never had
the resources available to review all statements as the OIG did but has recently received
authorization to hire additional staff, which will supplement the resources AMB can
devote to oversight of the Purchase Card Program.

Page 8 of the report addresses the Training Program. The report states that 7 of 52
approving officials (13%) and 1 of 97 cardholders were found to have no record of
training. These numbers are inconsistent with AMB’s records. We have no record of
any cardholders or approving officials who have not been properly trained. In fact, it is
our procedure to require that all cardholders and approving officials provide a copy of a
certificate of training before any purchase card applications are processed with Citibank
or before any approving officials are added to the roster. We continue to require proof of
training and supplement GSA training with in-house training so that all cardholders and
approving officials meet the training requirements. Most NLRB cardholders and
approving officials have more training than is required by regulation.

On page 9, the report states that 16 transactions were made by two purchase cardholders
over the $3,000 limit without additional procurement authority. One of the first actions
taken by AMB was to reduce the limits of all purchase cards to $3,000, with the
exception being warranted contracting officers. We believe that this finding was
documented very early in the audit process. We have confirmed that only cardholders
with warrant authority above $3,000 have purchase card authority over the $3,000
threshold.

On page 10 of the report, it charges that the procedures for identifying split purchases
have not been fully implemented. The same paragraph states that the agency’s Purchase
Card Management Plan identifies procedures to review activity for questionable
transactions for purchase card misuse. We disagree with the observation that the
procedures were not implemented. We have addressed the issue of split orders during
training sessions and directly with staff during monitoring of purchase card transactions.
AMB employs checklists that are used to monitor purchase card transactions and lists
split purchases among other examples of misuse.

Furthermore, on page 10, the report addresses purchases made by cardholders that were
outside their authorized purchase categories, such as training by other than the Office of
Employee Development, books and subscriptions by other than Library Services,
furniture by other than the Facilities and Property Branch, repair services, and
transportation costs. This subject was amply addressed in the purchase card training
provided in-house to all cardholders and approving officials. However, in light of the
report’s findings, AMB will take additional steps to prevent unauthorized use of the
purchase card and further identify those cardholders who purchase unauthorized goods
and services and provide this information to the appropriate officials, documenting
misuse of the purchase card.

As noted in the report, AMB has taken steps to ensure that cardholders know they are
required to use mandatory sources for purchases above $100. This subject was also well-
covered in the purchase card training. We will continue to monitor these transactions to
ensure that mandatory sources are properly utilized and files are properly documented
when commercial sources must be used in lieu of mandatory Government sources. We
have documented savings with our use of the GSA Strategic Sourcing BPAs and will
continue to enforce this requirement. Administrative Bulletin 11-08 was issued on the
subject on April 15, 2011.

The report indicates that of 115 sales tax transactions, totaling $1,796.07, only $78 in
sales taxes has been recovered. This requirement was also covered in the purchase card
training and is being monitored on a regular basis. We will continue to communicate this
requirement to cardholders and approving officials and make our best effort to recover
sales taxes paid.

In your memo, you requested that we indicate our agreement or disagreement with each
of the report’s findings and recommendations. We acknowledge the recommendations
made in the draft report and plan to comply fully as resources allow. Our comments
regarding the report’s recommendations are as follows:

Recommendation #1 – Amend the Management Plan to include all items required
by Appendix B.
The draft report (report) states that the Purchase Card Management Plan (plan) addresses
all but two of the required elements in OMB Circular A-123, Appendix B. The first
element is an explanation of how available reports and data would be used to monitor
delinquency, misuse, performance metrics, spend analysis, and other relevant transactions
and program management issues. The plan did state in general terms that on-line reports
from Citibank were reviewed to identify and investigate potential cases of misuse and
fraud. In addition, it was communicated to the OIG during the review, and is
documented in the draft report, that the Citibank reports were being used to monitor the
performance of cardholders and approving officials. This information was submitted in
response to questions on how monitoring was being addressed.

AMB will amend the Management Plan to address in more specificity and detail how the
reports are used. This amendment will be included in the next submission to OMB.

Recommendation #2 – Implement the policies and procedures outlined in an
amended Management Plan:
This recommendation was described in the review as: “The Management Plan also did
not include a description of how the Agency will ensure the ongoing effectiveness of the
actions related to evaluating the effectiveness of training, refund management controls,
and tax recovery efforts.”
A description of how the effectiveness of the plan will be evaluated and measured will be
included in the amended version of the plan.

Recommendation #3 – Review the NLRB Guide to determine whether placing limits
on items that cardholders are authorized to purchase meets the Agency’s operating
needs.
AMB acknowledges this recommendation and will accommodate it to the best of its
ability.

Recommendation #4 – Request that the purchase cardholders attempt to obtain
refunds of sales tax paid:
AMB acknowledges this recommendation and will make every effort to identify and
recover sales taxes improperly paid by cardholders.

Under recommendations 3 and 4, the report states: “Recommendations 1 and 2 address
the development and implementation of written procedures to review purchase card use
for improper transactions.” The purchase card handbook of procedures has been drafted.
AMB expects to have the handbook in place very soon, with a goal of full
implementation in FY 2012. We have also placed information regarding the purchase
card program requirements on the new AMB intranet page so that staff may refer to them
at any time in the future.

Recommendation #5 – Coordinate with the Facilities and Property Branch to
provide guidance to purchase card holders related to maintaining records for and
disposition of non-consumable property purchases:
We disagree with this recommendation. Although AMB is committed to providing the
best environment for the agency to prevent loss of property, our primary role is to ensure
proper purchase of goods and services using the Government purchase card. Once the
items are received, the responsibility belongs to the program office to ensure that
purchased goods are properly used, maintained, and accounted for. We will be happy to
share the information on this finding with our customers, but we should not be held
responsible for accountability of property purchased for the program offices nor for
keeping track of inventories of equipment


In conclusion, AMB has made vast improvements in the purchase card program since
taking over its administration in late 2009 but has been limited in its oversight due to
inadequate staffing. We continue to make progress in developing policies and procedures
and will soon have more staff to meet the program requirements. We expect that the
program management goals will be achieved in FY 2012.
